PROOF OF SERVICE
I, Paul Fiscus III, do declare that on March 22, 2021,
as required by Supreme Court Rule 29,1 had served
the PETITION FOR REHEARING ON DENIAL OF
WRIT OF CERTIORARI on each party’s counsel,
and on every other person required to be served, by
depositing an envelope containing the above
documents in the United States mail properly
addressed to each of them and with first-class
postage prepaid within three calendar days. The
names and addresses of those served are as follows:
Salazar
1812 E. Fair St.
Garden City, KS 67846
I declare under penalty of perjury that the foregoing
is true and correct.

(Paul discus III
1106 N. Jefferson St.
Wichita, KS 67203
(316) 393-5303

